NO.
SUPREME COURT OF THE UNITED STATES
MATTHEW J. O’NEAL

PETITIONER,

vs.
UNITED STATES OF AMERICA,

RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
APPENDIX
Appendix A
Opinion of the United States Court of Appeals for the Sixth Circuit,
United States v. O’Neal, 836 Fed.Appx. 70 (6th Cir. 2020)
(unpublished).
App. la-4a
Appendix B
Memorandum Opinion and Order of the United States District
Court for the Western District (May 7, 2019) (unpublished)
United States v. O ’Neal, 2019 WL 2017808 (W.D.KY 2019) App. 5a-16a
Appendix C
Calloway Circuit Court Indictment No. 1 l-CR-00095
(returned June 16, 2011)
Commonwealth ofKentucky v. Matthew J. O ’Neal

App. 17a

Appendix D
Commonwealth’s Offer on a Plea of Guilty (January 23, 2012)
Commonwealth ofKentucky v. Matthew J. O’Neal
App. 18a

Appendix E
Calloway Circuit Court Judgment and Sentence on
Plea of Guilty (Misdemeanor) (March 27, 2012)

App. 19a-20a

Appendix F
Relevant Constitutional and Statutory Provisions

App. 21a-24a

Eighth Amendment, United States Constitution

App. 21a

18 U.S.C. §2252A(a)(5)(b)

App. 21a

18 U.S.C. §2252A(b)(2)

App. 21a

Ky.Rev.Stat. (KRS) §510.110 First Degree Sexual Abuse

App. 22a-23a

Ky.Rev.Stat. (KRS) §510.010 - Definitions for Chapter 510

App. 23a

Ky.Rev.Stat. (KRS) §506.010 - Criminal Attempt

App. 23a-24a

Appendix G
Excerpts from Kentucky Presentence Sentence Report (PSR)
- Filed under Seal in Supplemental Appendix

App. 25a-26a

!

Case: 20-5006

Document: 38-2

Filed: 11/16/2020

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0651n.06
Case No. 20-5006
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,

FILED
Nov 16, 2020
DEBORAH S. HUNT, Clerk

)
)

Plaintiff-Appellee,

)
)

v.

)
)
)

MATTHEW J. O’NEAL,
Defendant-Appellant.

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
KENTUCKY

)

BEFORE: NORRIS, SUTTON, and KETHLEDGE, Circuit Judges.
SUTTON, Circuit Judge. Matthew O’Neal pleaded guilty to possessing child pornography.
18 U.S.C. § 2252A(a)(5)(B).

The child pornography statute imposes a ten-year

mandatory-minimum sentence if the defendant has a prior conviction “under the laws of any State
relating to ... sexual abuse.” Id. § 2252A(b)(2). The district court found that O’Neal’s Kentucky
conviction for attempted first-degree sexual abuse qualified. We affirm.
What does it mean for a state law to “relat[e] to ... sexual abuse”? Id. Sexual abuse covers
actions that “injure, hurt, or damage for the purpose of sexual or libidinal gratification.” United
States v. Mateen, 806 F.3d 857, 861 (6th Cir. 2015). And “relat[e] to” is a “broad” phrase, Morales
v. Trans World Airlines, Inc., 504 U.S. 374,383 (1992) (quotation omitted), one that requires “only
that the state statute be associated with sexual abuse,” Mateen, 806 F.3d at 861; see also United

fyr

1 A

Case: 20-5006

Document: 38-2

Filed: 11/16/2020

Page: 2

Case No. 20-5006, United States v. O ’Neal
States v. Sinerius, 504 F.3d 737, 743 (9th Cir. 2007); United States v. McGarity, 669 F.3d 1218,
1262(11th Cir. 2012).
Both phrases considered, a state conviction counts under the statute if it is “associated with”
actions that “injure, hurt, or damage for the purpose of sexual or libidinal gratification.”
That’s not the end of it. The “categorical approach” guides the matching inquiry. United
States v. Parrish, 942 F.3d 289, 295-96 (6th Cir. 2019). Instead of just looking at the facts of
O’Neal’s prior conviction, we consider the range of conduct criminalized by the Kentucky law to
see if convictions under the law categorically relate to sexual abuse. See Taylor v. United States,
495 U.S. 575, 600 (1990). If the least culpable conduct proscribed by the statute relates to sexual
abuse, the entire statute does. Perez v. United States, 885 F.3d 984, 987 (6th Cir. 2018).
What conduct generally criminalized under the state law, then, least relates to sexual abuse?
The parties agree that the conduct least related to sexual abuse, but criminalized under Kentucky’s
first-degree sexual abuse statute, is knowingly masturbating in the presence of a minor. See K.R.S.
§§ 510.110(l)(c)(2), 510.110(l)(d). Does that conduct relate to sexual abuse? Is it associated with
actions that “injure, hurt, or damage for the purpose of sexual or libidinal gratification”? Mateen,
806 F.3d at 861.
We think so. Masturbation is “for the purpose of sexual or libidinal gratification.” Id. And
masturbating in a minor’s presence constitutes action that “hurt[s] or damage[s]” the child. Id.
Why? Whether or not the minor provides the mental stimulus for the masturbation, exposing a
minor to sexually explicit acts is hurtful and damaging. Even if the minor is unaware of the
masturbation (perhaps because the child is asleep), such conduct creates serious risks anyway
because the child could wake up or find out about it after the fact.

2

2^

Case: 20-5006

Document: 38-2

Filed: 11/16/2020

Page: 3

Case No. 20-5006, United States v. O’Neal
Through it all, the key point is that the federal statute requires only that the state law “relate
to” sexual abuse. Masturbating in the presence of a child, whether the child is awake or asleep,
whether the child participates or not, “relates to” sexual abuse.
In challenging this conclusion, O’Neal claims that Mateen shows that sexual abuse requires
“physical contact” or “intent to cause harm for the purpose of sexual gratification.” Appellant’s
Br. 12, 15. But this part of Mateen merely described the elements of the Ohio crime at issue in
that case. 806 F.3d at 863. That the elements of this Ohio crime were sufficient to “relate to”
sexual abuse in Mateen does not establish what is necessary in other cases. And the elements of
that Ohio statute don’t change the general definition of sexual abuse provided in Mateen and
applied here. Mat 861.
Keep in mind that, even if Kentucky’s sexual abuse statute can be violated in ways that
make it broader than the generic definition of sexual abuse, that shows only that there is not a
perfect match. But a perfect match is not required to satisfy the “relates to” scope of the law.
That’s unlike the Armed Career Criminal Act, which does not contain a “relates to” clause. See
Parrish, 942 F.3d at 296. Under today’s statute, a state law may sweep more broadly than a federal
offense yet still be categorically “related to” that offense. Other circuits have invoked the point in
holding that a state statute “relates to” sexual abuse even if it doesn’t require actual harm. See
United States v. Stults, 575 F.3d 834, 845 (8th Cir. 2009); see also United States v. Hubbard,
480 F.3d 341,347 (5th Cir. 2007); United States v. Wiles, 642 F.3d 1198,1201-02 (9th Cir. 2011).
O’Neal adds that his prior state conviction was for attempted sexual abuse, making it harder
to show that his conviction related to sexual abuse. But attempting to masturbate in the presence
of a minor is still “associated with” its intended outcome. It would distort common sense to say
that attempting an act that would constitute sexual abuse does not relate to sexual abuse.

3

&

3

Case: 20-5006

Document: 38-2

Filed: 11/16/2020

Page: 4

Case No. 20-5006, United States v. O’Neal
If attempts did not relate to their intended outcome, how else could their relationship be explained?
We are not alone, again, in drawing this conclusion. See Hubbard, 480 F.3d at 345-46; Stults,
575 F.3d at 844-46; Wiles, 642 F.3d at 1202.
Mellouli v. Lynch, 135 S. Ct. 1980, 1990 (2015), it is true, shows that the statutory context
of “relates to” may limit its reach. At issue was the Immigration and Nationality Act, which says
that prior state convictions “relating to a controlled substance (as defined in section 802 of Title
21)” authorize deportation. 135 S. Ct. at 1984 (quoting 8 U.S.C. § 1227(a)(2)(B)(i)). The Court
reasoned that the otherwise broad scope of the phrase “relating to a controlled substance” was
narrowed by the parenthetical that followed it. Id. at 1990-91. It then held that a state conviction
for possession of drug paraphernalia, potentially including possession of a sock used to store drugs,
exceeded the reach of the statute. Id. at 1983-84, 1991. But that is a distant cry from this case.
Nothing in § 2252A(b)(2) shows that Congress qualified the scope of the sexual abuse offenses
listed in that statute and what “relat[es] to” them. See 18 U.S.C. § 2252A(b)(2); see also United
States v. Sullivan, 797 F.3d 623, 640 (9th Cir. 2015). And nothing in the statute suggests that
masturbating in front of a child does not “relate to” sexual abuse.
One loose end dangles. O’Neal separately argues that his sentence, a ten-year mandatory
minimum, violates the Eighth Amendment’s prohibition on “cruel and unusual punishmentQ.”
U.S. Const, amend. VIII. But we have upheld plenty of mandatory-minimum sentences in the face
of Eighth Amendment challenges before. See, e.g., United States v. Hughes, 632 F.3d 956, 959
(6th Cir. 2011). And a “sentence within the statutory maximum set by statute generally does not
constitute cruel and unusual punishment.” Austin v. Jackson, 213 F.3d 298, 302 (6th Cir. 2000)
(quotation omitted). Nothing about this case alters that conclusion here.
We affirm.

4

*tf-

4 o~

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 1 of 12 PagelD #: 110

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
ATPADUCAH
CIVIL ACTION NO. 5:18-CR-00022-TBR
PLAINTIFF

UNITED STATES OF AMERICA,
v.

DEFENDANT

MATTHEW J. O’NEAL,
MEMORANDUM OPINION AND ORDER

On August 14, 2018, Matthew O’Neal was charged with one count of possession of child
pornography in violation of 18 U.S.C. §§ 2252A(a)(5)(B) and 2252A(b)(2). [R. 10 (Federal
Indictment).] On March 19, 2019, O’Neal appeared for a Change of Plea Hearing. At the
Hearing, the Court directed the parties to brief the following issues:
(1) Whether O’Neal’s prior misdemeanor conviction for 1st Degree Attempted
Sexual Abuse (15-year-old victim) triggers the enhanced penalties under
2252A(b)(2); and
(2) Whether 2252A(b)(2)’s enhanced penalty for “offense involv[ing] a
prepubescent minor or a minor who had not attained 12 years of age” has a
knowledge element. That is, does the United States need to prove mens rea as
to the type of child pornography involved in the offense in order to establish a
violation of 2252A(a)(5)(B)?
[R. 30 (Court Order).] The Court will address each issue in turn.
Also before the Court is the United States’ (“the Government”) Motion for Leave to File
Sealed Document. [R. 32.] Without an opposing response from O’Neal, and the Court being
otherwise sufficiently advised, the Government’s Motion for Leave to File Sealed Document, [R.
32], is GRANTED.
I.

The Enhanced Penalties Under § 2252A(b)(2)

1

V 5*

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 2 of 12 PagelD #: 111

A violation of 18 U.S.C. § 2252A(a)(5)(B) calls for a custody sentence of “not more than
10 years.” 18 U.S.C. § 2252A(b)(2). However, if the defendant “has a prior conviction ... under
the laws of any State relating to aggravated sexual abuse, sexual abuse, or abusive sexual
conduct involving a minor or ward ... such person shall be fined under this title and imprisoned
for not less than 10 years nor more than 20 years.” Id. Prior to the federal charge at hand, on
March 26, 2012, O’Neal pleaded guilty in Calloway Circuit Court to criminal attempt to first
degree sexual abuse in violation of K.R.S. §§ 510.110 and 506.010. [R. 31-1
(Judgment/Sentence).] The Government argues that this state charge triggers enhanced penalties
pursuant to § 2552A(b)(2). [R. 31 at 2-7.] O’Neal disagrees.
As the Sixth Circuit has explained:
When deciding whether a prior state-law conviction triggers an enhanced
sentence, we begin with a categorical approach. We look first to the “fact of
conviction and the statutory definition of the prior offense”—not the facts
underlying the conviction—to determine the nature of the crime. If the state crime
of conviction has the same elements as the generic offense—“the offense as
commonly understood”—then the prior conviction can serve to enhance the
federal sentence.
United States v. Mateen, 806 F.3d 857, 859-60 (6th Cir. 2015) (internal citations omitted).
However, if the state statute at hand is divisible, i.e., “comprises multiple, alternative versions of
the crime,” the Court may engage in the “modified categorical approach.” Descamps v. United
States, 570 U.S. 254, 262-64 (2013). If not all of the crimes listed in the state statute match the
generic offense, “a court needs a way to find out which the defendant was convicted of.” Id. at
264. Thus, the “job” of the modified categorical approach is to “identify, from among several
alternatives, the crime of conviction so that the court can compare it to the generic offense.” Id.
“Put another way, the purpose of the modified categorical approach is simply to determine of
what elements the defendant was convicted so that the court can apply the categorical approach.”

2

6^

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 3 of 12 PagelD #: 112

United States v. Davis, 751 F.3d 769, 776-77 (6th Cir. 2014) (citing Descamps, 133 S. Ct. at
2281).
A. The Categorical Approach
The statute enhancement at issue here applies to an offender with a prior state conviction
“relating to aggravated sexual abuse, sexual abuse, or abusive sexual conduct involving a minor
or ward.” 18 U.S.C. § 2252A(b)(2). The Sixth Circuit has defined sexual abuse consistent with
its common meaning, stating that “sexual abuse ... connotes the use or treatment of so as to
injure, hurt, or damage for the purpose of sexual or libidinal gratification.” Mateen, 806 F.3d at
861.
Turning to the state conviction, O’Neal pleaded guilty to attempted first degree sexual
abuse in violation of K.R.S. §§510.110 and 506.010.1 Section 510.110 provides:
(1) A person is guilty of sexual abuse in the first degree when:
K.R.S. § 506.010 is the Kentucky statute for criminal attempt. It provides:
(1) A person is guilty of criminal attempt to commit a crime when, acting with the kind of
culpability otherwise required for commission of the crime, he:
(a) Intentionally engages in conduct which would constitute the crime if the attendant
circumstances were as he believes them to be; or
(b) Intentionally does or omits to do anything which, under the circumstances as he
believes them to be, is a substantial step in a course of conduct planned to culminate in
his commission of the crime.
(2) Conduct shall not be held to constitute a substantial step under subsection (l)(b) unless it is an
act or omission which leaves no reasonable doubt as to the defendant's intention to commit the
crime which he is charged with attempting.
(3) A person is guilty of criminal attempt to commit a crime when he engages in conduct intended
to aid another person to commit that crime, although the crime is not committed or attempted by
the other person, provided that his conduct would establish complicity under KRS 502.020 if the
crime were committed by the other person.
(4) A criminal attempt is a:
(a) Class C felony when the crime attempted is a violation of KRS 521.020 or 521.050;
(b) Class B felony when the crime attempted is a Class A felony or capital offense;
(c) Class C felony when the crime attempted is a Class B felony;
(d) Class A misdemeanor when the crime attempted is a Class C or D felony;
(e) Class B misdemeanor when the crime attempted is a misdemeanor.
Ky. Rev. Stat. Ann. § 506.010.

3

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 4 of 12 PagelD #: 113

(a) He or she subjects another person to sexual contact by forcible
compulsion; or
(b) He or she subjects another person to sexual contact who is incapable of
consent because he or she:
1. Is physically helpless;
2. Is less than twelve (12) years old;
3. Is mentally incapacitated; or
4. Is an individual with an intellectual disability; or
(c) Being twenty-one (21) years old or more, he or she:
1. Subjects another person who is less than sixteen (16) years old
to sexual contact;
2. Engages in masturbation in the presence of another person who
is less than sixteen (16) years old and knows or has reason to know
the other person is present; or
3. Engages in masturbation while using the Internet, telephone, or
other electronic communication device while communicating with
a minor who the person knows is less than sixteen (16) years old,
and the minor can see or hear the person masturbate; or
(d) Being a person in a position of authority or position of special trust, as
defined in KRS 532.045, he or she, regardless of his or her age, subjects a
minor who is less than eighteen (18) years old, with whom he or she
comes into contact as a result of that position, to sexual contact or engages
in masturbation in the presence of the minor and knows or has reason to
know the minor is present or engages in masturbation while using the
Internet, telephone, or other electronic communication device while
communicating with a minor who the person knows is less than sixteen
(16) years old, and the minor can see or hear the person masturbate.
(2) Sexual abuse in the first degree is a Class D felony, unless the victim is less
than twelve (12) years old, in which case the offense shall be a Class C felony.
Ky. Rev. Stat. Ann. § 510.110.
Under the categorical approach, the Court must determine whether the Kentucky statute
by its nature and elements, “relatfes]” to “sexual abuse,” as defined above. See Mateen, 806 F.3d
at 862 (citing Taylor v. United States, 495 U.S. 575, 599 (1990)). The Government argues that
under the Sixth Circuit’s broad interpretation of “relating to,” all the crimes listed under
Kentucky’s sex abuse statute relate to sex abuse. [R. 31 at 4.] O’Neal retorts that the Kentucky
4

V

8

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 5 of 12 PagelD #: 114

statute is broader than the generic definition of sex abuse. [R. 34 at 5-6.] The Court finds that the
crimes listed under § 510.110 relate to the generic definition of sex abuse, causing the enhanced
penalties under § 2252A(b)(2) to be triggered.
The Government cites the Sixth Circuit’s findings in United States v. Mateen, for the
contention that “relating to” is to be interpreted broadly. [R. 31 at 4 (citing Mateen, 806 F.3d at
860).] Thus, the Government concludes “all of the conduct listed in K.R.S. § 510.110 ‘relates to’
sexual abuse, as each section of the Kentucky statute relates to sexual conduct that is nonconsensual
by virtue of force, age, or mental incapacitation, and therefore abusive.” [Id.] In Mateen, the Sixth
Circuit held that the defendant’s prior Ohio conviction for gross sexual imposition qualified as a
conviction relating to “sexual abuse,” and, thus, affirmed the lower court’s finding that the §
2252 sentencing enhancement should be applied. 806 F.3d at 859. The Court referenced the
findings of the Ninth, Eleventh, and Fourth circuits in defining “relating to,” stating:
Other circuits have broadly interpreted the phrase “relating to” as triggering
sentence enhancement for “any state offense that stands in some relation, bears
upon, or is associated with that generic offense.” United States v. Sullivan, 797
F.3d 623, 638 (9th Cir.2015) (quoting Sinerius, 504 F.3d at 743); Barker, 723
F.3d at 322-23 (quoting Sinerius with approval); United States v. McGarity, 669
F.3d 1218, 1262 (11th Cir.2012) (same); see also United States v. Colson, 683
F.3d 507, 511-12 (4th Cir.2012) (“Numerous courts of appeals agree that
Congress chose the expansive term ‘relating to’ in § 2252(A)(b)(l) to ensure that
individuals with a prior conviction bearing some relation to sexual abuse ...
receive enhanced minimum and maximum sentences.”); Sonnenberg, 556 F.3d at
671 (adopting “stand in some relation” formulation).
Mateen, 806 F.3d at 860. The Sixth Circuit agreed with its sister circuits, stating that unlike
sentence enhancement statutes that require the state statute to “mirror” the federal statute,
“[s]ection 2252(b)(2)’s ‘relating to’ language, however, requires only that the state statute be
associated with sexual abuse.” Id. at 861. Finding that each section of the Ohio statute
“proscribes sexual contact that is non-consensual by virtue of force, threats of force, impairment,

5

9 a.

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 6 of 12 PagelD #: 115

or age, and therefore abusive,” the Sixth Circuit held that all possible violations of Ohio’s sexual
imposition statute relate to sexual abuse. Id. at 862-63.
In response, O’Neal gives two examples of violations of § 510.110 he claims do not
relate to the generic definition of sex abuse. First, O’Neal argues “both 510.110 (c)(2) and (d) are
both broader than the generic definition, as an individual could masturbate in the presence of a
sleeping child, or a child who is not paying attention to the sexual conduct, and not cause any
injury to the child.” [R. 34 at 5.] Second, O’Neal contends that since an attempted crime does not
necessarily include an injury, “any injury that may be sustained by a victim of Sex Abuse First
Degree, would not likely be sustained by a victim of an attempt.” [Id.\ In support, O’Neal cites to
the Sixth Circuit’s findings in United States v. Armstead, a case involving a potential sentencing
enhancement under the Armed Career Criminal Act (ACCA), in which the defendant was
indicted for aggravated child abuse but pleaded guilty only to attempted child abuse. 467 F.3d
943, 949 (6th Cir. 2006). As the defendant only pleaded guilty to attempted child abuse, the
Court in Armstead limited its examination of the state indictments “to the elements of the
charges that are essential to defendant's plea of guilty to attempted child abuse.” Id. (citing
United States v. Arnold, 58 F.3d 1117, 1124 (6th Cir. 1995)). This precluded consideration of the
clause of the indictment that alleged that the victim child suffered bodily injury because
attempted child abuse does not necessarily include such injury. Id. at 952. As there was no other
evidence of violent conduct before the district court, the Sixth Circuit held that “the finding of a
crime of violence based on the indictments alone was error.” Id. at 949.
The Court agrees with the Government that, in the more recent case of Mateen, the Sixth
Circuit has aligned itself with several other circuits in interpreting the sentencing enhancement’s
“relating to” language broadly. Mateen, 806 F.3d at 862-63; United States v. Bennett, 823 F.3d

6

10

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 7 of 12 PagelD #: 116

1316, 1324-25 (10th Cir. 2016) (finding that “relating to” is “expansive” in the section
2252A(b)(2) context); United States v. Sullivan, 797 F.3d 623, 638 (9th Cir. 2015) (holding that
“relating to” “mandates the enhancement for any state offense that stands in some relation, bears
upon, or is associated with that generic offense”); United States v. Barker, 723 F.3d 315, 323 (2d
Cir. 2013) (same); United States v. McGarity, 669 F.3d 1218, 1262 (11th Cir. 2012) (same);
United States v. Colson, 683 F.3d 507, 511-12 (4th Cir. 2012) (same).2 In Mateen, the Sixth
Circuit found that the language of § 2252(b) created a “broad sweep” that engulfed all of the
possible violations of Ohio’s gross sexual imposition statute. 806 F.3d at 863. Essentially, the
Court adopted the Supreme Court’s definition of “relating to”: “The ordinary meaning of these
words is a broad one—'to stand in some relation; to have bearing or concern; to pertain; refer; to
bring into association with or connection with,’ Black's Law Dictionary 1158 (5th ed. 1979)—
and the words thus express a broad pre-emptive purpose.” Morales v. Trans World Airlines, Inc.,
504 U.S. 374, 383 (1992). Intuitively, one would think that this Kentucky statute involving
sexual conduct that is nonconsensual by way of force, age, or mental incapacitation would relate
to the common meaning of sexual abuse.
In opposition of this intuition, O’Neal provides two examples of how the elements of the
Kentucky statutes to which he pleaded guilty are broader than the federal definition of sexual
abuse. Both examples encapsulate the notion that the elements of the statutes do not require an
injury, making the state statute broader than the Sixth Circuit’s definition of sex abuse—which
requires that the abuse “injure, hurt, or damage.” Mateen, 806 F.3d at 861. True, the Sixth

2 Other courts interpreted Mateen in this fashion as well. See United States v. Geasland, 694 F. App'x 422,438 (7th
Cir. 2017), cert, denied, 138 S. Ct. 699,199 L. Ed. 2d 574 (2018) (citing Mateen as an example of a court applying
the categorical approach while interpreting “relating to” broadly); Bennett, 823 F.3d 1316, 1324—25 (citing Mateen
in support of the assertion that “’relating to” remains broad in this context”).

7

11 ft.

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 8 of 12 PagelD #: 117

Circuit came to a similar conclusion in Armstead when it precluded consideration of the charges
in the state indictment that described the child victim’s injury due to the fact that a conviction of
attempted child abuse does not necessarily include injury. Armstead, 649 F.3d at 444. However,
as highlighted by the Government, Armstead involved a different federal statute. In Armstead,
the defendant was convicted of being a previously convicted felon in violation of 18 U.S.C. §
922(g), and “[t]he presentence report concluded that Armstead's offense level should be
increased pursuant to § 4B1.2 of the Guidelines because he had been previously convicted of a
‘crime of violence.’ See U.S.S.G. §§ 2K2.1(a)(4)(A) and 4B1.2(ay Armstead, 467 F.3d at 945.
In executing the categorical approach, the Sixth Circuit first decided “whether the statutory
definition, by itself, supports a conclusion that the defendant was convicted of a crime of
violence.” Id. at 947. In contrast, under the statute currently at issue, § 2252A(b)(2), rather than
deciding whether the statutory definition supports a conclusion that defendant was convicted of
sexual abuse, the Court merely has to decide whether the Kentucky statute by its nature and
elements “relat[esj” to sexual abuse. Thus, the Court finds that the analysis in Armstead is
distinguishable from the analysis at hand.
Furthermore, several other circuits that also adopted the broad interpretation of “relating
to” in the context of § 2252(b)(2) have held that “[a] prior conviction ‘relates to’ aggravated
sexual abuse, sexual abuse, or abusive sexual contact ‘whether or not the statute under which
[the defendant] was convicted required actual harm.’” United States v. Stults, 575 F.3d 834, 845
(8th Cir. 2009) (citing United States v. Weis, 487 F.3d 1148, 1152 (8th Cir.2007)); see also
United States v. Wiles, 642 F.3d 1198, 1201 (9th Cir. 2011) (“An attempt conviction ‘clearly
“stands in some relation to” or “pertains to” the crimes of aggravated sexual abuse, sexual abuse,
or abusive sexual conduct involving a minor’ and therefore qualifies as a predicate offense under

8

App.

124

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 9 of 12 PagelD #: 118

§ 2252(b)(1).”); United States v. Hubbard, 480 F.3d 341, 347 (5th Cir. 2007) (holding that prior
state law convictions for which the sentencing enhancement is imposed are not limited to
offenses involving sexual contact between a defendant and victim). Thus, under the broader
interpretation of “relating to,” the Court finds that the absence of a requirement of harm or injury
would not prevent the elements of K.R.S. § 510.110 from being related to the offense sexual
abuse as defined above.
The Court also acknowledges that O’Neal cites to the Sixth Circuit’s findings in United
States v. Gardner toward the end of his discussion of Armstead. [R. 34 at 6.] Although O’Neal
provides no explanation for this citation, the Court assumes O’Neal references Gardner for its
finding that because the defendant pled only to “sexual battery,” which did not require that the
victim be a minor, “the references in the indictment suggesting the victim was a minor are not
‘essential to the offense to which [Gardner] entered his plea.’” Gardner, 649 F.3d 437, 444 (6th
Cir. 2011). As argued by the Government, the Court agrees that Gardner is distinguishable from
the case at hand in that it applied Armstead’s holding in a § 2252A(b) case involving a statute
missing an element concerning the victim’s age rather than an element concerning injury or
harm. Though, perhaps more importantly, in Gardner, the Sixth Circuit’s execution of the
categorical approach appears contradictory to that which occurred in the more recent case of
Mateen. In Gardner, the Sixth Circuit instructed that the analysis began with “examining
whether the statute of conviction falls within the four corners of the federal statute.” 649 F.3d at
443. Conversely, in Mateen, the Sixth Circuit merely requires that the state conviction “relat[es]
to” the federal offense. 806 F.3d at 860. As the Sixth Circuit’s finding in Mateen is more recent,

9

ftp f- 13^

,1?

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 10 of 12 PagelD #: 119

and better aligns with that of other circuits, the Court will follow the instruction in Mateen over
Gardner?
In sum, the Court finds that K.R.S. § 510.110, in conjunction with K.R.S. § 506.010, by
its nature and elements, “relat[es]” to “sexual abuse,” as defined above. Thus, O’Neal’s prior
misdemeanor conviction for 1st Degree Attempted Sexual Abuse triggers the enhanced penalties
under § 2252A(b)(2).
B. The Modified Categorical Approach
As the Court has found that O’Neal’s prior misdemeanor conviction for 1st Degree
Attempted Sexual Abuse triggers the enhanced penalties under § 2252A(b)(2), it is not
necessary to engage in the modified categorical approach outlined above. Descamps, 570 U.S. at
263 (referring to the modified approach “not as an exception, but instead as a tool” which
“merely helps implement the categorical approach when a defendant was convicted of violating a
divisible statute”). The Court acknowledges that the parties dispute this issue—specifically
whether the Court may consult the excerpt from the state presentence report tendered by the
Government. However, the Court notes that even if it did consider the facts laid out in the state
presentence report and found the relevant subsection of the Kentucky sexual abuse statute to be
K.R.S. § 510. 110(c)(1), as requested by the Government, the Court would still be left with the

3 It is also unclear as to whether the Sixth Circuit’s underlying reasoning in Gardner is still proper after the Sixth
Circuit’s subsequent holding in the 2014 opinion in United States v. Mateen (“2014 Mateen”). (2014 Mateen is a
different opinion from the Mateen case mentioned above, as 2014 Manteen was published one year prior.) In
Gardner, the Court held that “[t]he statute of conviction does not require, as an element of the offense, that the
complaining witness be a minor; thus, the statute itself does not justify a sentence enhancement.” 649 F.3d at, 443.
However, three years later in 2014 Mateen, the Court held only the third listed conduct category, i.e., “abusive
sexual conduct involving a minor,” requires that the victim be a minor in order to trigger the sentencing
enhancement. United States v. Mateen, 764 F.3d 627, 630-31 (6th Cir. 2014). Thus, the Court found that a prior state
conviction relating to aggravated sexual abuse or sexual abuse triggers the sentencing enhancement even if the
conviction did not involve a minor victim. Id. at 630-32. As the Sixth Circuit did not specify in Gardner that the
state conviction was for “sexual conduct involving a minor,” the holding that the statute did not justify an
enhancement because it did not require that the victim be a minor appears to contradict the subsequent holding in
2014 Mateen.

10
Ajo/>. 14<x

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 11 of 12 PagelD #: 120

question of whether an attempt to commit such sexual abuse under state law is related to the
federal definition of sexual abuse. Of course, this is the exact question the Court just resolved
above under the categorical approach. Thus, the Court does not find much use for this “tool,”
otherwise known as the modified approach, in this instance.
n. Whether § 2252A(b)(2) has a Knowledge Element
As to the second issue before the Court, concerning whether the Government needs to
prove mens rea as to the type of child pornography involved in the offense in order to establish a
violation of § 2252A(a)(5)(B), the parties appear to agree. The Government argues that the Court
is not required to find that O’Neal knew that the child pornography in his possession contained
images of minors under the age of twelve years old in order to accept O’Neal’s guilty plea. [R.
31 at 7-10.] In response, O’Neal agrees, stating: “At a minimum, it would seem that it
must be proven that Mr. O’Neal had knowing possession of the memory card, and its contents.
Whether he had specific knowledge that a minor in a particular image was in fact under twelve
would not seem necessary.” [R. 34 at 12.] Thus, as the matter is not disputed, the Court finds that
it is not necessary to find that O’Neal knew that the child pornography in his possession
contained images of minors under the age of twelve years old in order to accept his guilty plea.
Despite stating that proof of his knowledge that the minors in the images were under the
age of twelve “would not seem necessary,” O’Neal requests that he be given the opportunity to
inspect the “images and mediums involved (the memory card and card reader)” in order to
clarify what specific admissions, if any, he is prepared to make. [R. 34 at 13.] O’Neal argues that
“[a]t that point, the discussion regarding whether enough facts have been admitted to support the
increased potential maximum sentence will be more clearly defined.” [Id.] The Court will
discuss this issue during the phone conference on May 7, 2019.

11

15*

*.

I

Case 5:18-cr-00022-TBR Document 39 Filed 05/07/19 Page 12 of 12 PagelD #: 121

CONCLUSION
For the foregoing reasons, IT IS HEREBY ORDERED:
(1) The Government’s Motion for Leave to File Sealed Document, [R. 32], is
GRANTED.
(2) O’Neal’s prior misdemeanor conviction for 1st Degree Attempted Sexual Abuse
triggers the enhanced penalties under § 2252A(b)(2);
(3) The parties agree that the Court is not required to find that O’Neal knew that the child
pornography in his possession contained images of minors under the age of twelve
years old in order to accept O’Neal’s guilty plea.
IT IS SO ORDERED.

Thomas B. Riissell, Senior Judge
United States District Court
May 6.2019

cc: Counsel of Record

12

Afp- 1 6 <K

Catoi:5a8feMTO®22FB^;imaOTW»Tttm3 Kited 04/02/19 . Pd8fffcXL(ttf31lf8ia8MDB#/B8

Direct Submission
COMMONWEALTH OF KENTUCKY
CALLOWAY CIRCUIT COURT
Indictment Not 11-CR-®M95
"SEALED INDICTMENT"
COMMONWEALTH OF KENTUCKY,
Ct. 1:

Attempted Unlawful
Transaction With a Minor,

1st Degree, Illegal Sex Act Under 16

KRS: 530.064(l)(a) UOR: 0381121
Class C Felony
VS.
Cts. 2-3:

Prohibited Use of Elec. Comm.
System to Procure a Minor to
Engage in Sex Acts
KRS: 510.155(1) UOR: 0109700
Class D Felonies

DOB:
SSN:

,

.......

U5.

THE GRAND JURY CHARGES:

___ D.C.

Ct. 1: That between June 14-19,2010, in Calloway County, Kentucky, the above-named
Defendant committed the offense of Attempted Unlawful Transaction With a Minor, lsl Degree,
Illegal Sex Act Under 16, when he knowingly and unlawfully solicited sexual contact from a
minor less than 16 years old, in violation of ICRS 530.064(l)(a).
CL 2: That between June, 2010 and August, 2010, in Calloway County, Kentucky, the
above-named Defendant committed the offense of Prohibited Use of Electronic Communications
System to Procure a Minor to Engage in Sex Acts, when he used a computer for the purpose of
procuring a minor for sexual acts, in violation of ICRS 510.155.

CL 3: That between January, 2010 and August, 2010, in Calloway County, Kentucky,
the above-named Defendant committed the offense of Prohibited Use of Electronic
Communications System to Procure a Minor to Engage in Sex Acts, when he used a computer
for the purpose ofprocuring a minor for sexual acts, in violation of KRS 510.155.
AGAINST THE PEACE AND DIGNITY OF THE COMMONWEALTH OF KENTUCKY
TRUE BILL
M. O’Neal Indictment 1
Attachment C
ONEAL-000278

/W
ff 7 a

i

Case 5:18-cr-00022-TBR Document 31-4 Filed 04/01/19 Page 1 of 1 PagelD #: 71

Jan. 20. 2012 1 :52PM
AOC 491.1

No. 8827

Doc Code: COP,..

No.

Rev. M3

Court:

Commonwealth of Kentucky
Office of Iho Commonwealth's Attorney
Judicial District
Calloway and Marshall Counties

Commonwealth’s Offer on a
Plea of Guilty

P. 1

11-CR-00095
CIRCUIT

County:

CALLOWAY

COMMONWEALTH OF KENTUCKY,

PLAINTIFF,

VS.
MATTHEW O'NEAL, .
1.

DEFENDANT.

CHARGES:

PENALTY:

Ct. 1; Attempted Unlawful Transaction with a Minor, 1st Degree
Cts. 2-3: Prohibited Use of Electronic Communication System to
Procure Sexual Performance by a Minor
2.

AMENDED CHARGES (IF APPLICABLE}:

4.

FACTS OF THE CASE:

Class D Felonies.

PENALTY:

Ct. 1. Attempted Sexual Abuse, 1sl Degree ’
Cts. 2 & 3: Merge with Count 1.
3.

Class C Felony

Class A Misdemeanor

.

See indictment as amended.

FiLED AND NOTED OF RhOUhD
&
THIS
-. ^

RECOMMENDATIONS ON A PLEA OF GUILTY:

BY

i-ofb-

CALLOWAY CIRCUIT,O.S I. .iC.

D.C.

i/nfe
Ct. 1: 12 months, conditionally discharged for 2 years.
The Defendant shall have no contact or communication with the victims. Sex Offender treatment and
sex offender registration as mandated by law. The .Defendant shall stay away from any rn inors and
will not go on the premises of- any Calloway County or Murray City Schools.
Restitution, if any, by separate order. Forfeit all items seized.
5.

REASON FOR AMENDED CHARGE IF APPLICABLE:

6.

OFFERED this the 17m day of January, 2012.

Commonwealth's Attorney ^Assistant

Defendant's Attorney '

Defendant
Approved by K. Nall. KSP

Prosecuting Wifness/Victim

Police Officer

Attachment D

4fPt1 8

CaBasB: £8jr8fe€KDTO2gFB^, EBocmWT^lttmg. Fiiig$ 04/02/13 P

3. Q3f2F?^HFW#.6gg

AOC-445

Doc. Code: JSP6
Commonwealth of Kentucky
Court of Justice

Case No. 11-CR-O0O95

JUDGMENT AND SENTENCE
ON PLEA OF GUILTY
(MISDEMEANOR)

CIRCUIT COURT
CALLOWAY COUNTY

entered
COMMONWEALTH OF KENTUCKY '

by----------- _____ y

V.

MATTHEW J. O’NEAL

p Social Sec. No.: XXX-X>^j|^

DEFENDANT

The defendant at arraignment entered a plea of NOT GUILTY to the following charges contained in the
indictment/information; (1) Criminal attempt to first degree unlawful transaction with a minor; (2) Prohibited use of
electronic communications system to procure a minor to engage in sex acts; (3) Prohibited use of electronic
communications system to procure a minor to engage in sex acts, which offenses were committed between January and
2010, when the defendant was Twenty (20) and Twenty-one (21) years old. The defendant's date of birth
And on the day of January 23,2012 having appeared in open court with his attorney Mike Ward, by agreement wtRhe
attorney for the Commonwealth he withdrew his plea of not guilty and entered a plea of GUILTY. Finding that the defendant
understands the nature of the charges against him including the possible penalties, that the defendant knowingly and voluntarily
waives his right to plead innocent, to be tried by a jury, to compel the attendance of witnesses in his behalf, to confront and cross
examine witnesses and to appeal his case to a higher court, and finding further that the defendant understands and voluntarily
waives his right not to incriminate himself, his right to be represented by an attorney at each stage of the proceedings against him
and, if necessary, to have an attorney appointed to represent him, and finding that the plea is volu ntary, the Court accepts the plea.
On March 26,2012 the defendant appeared in open court with his attorney Mike Ward and the court inquired of the
defendant and his attorney whether they had any legal cause to show why judgment should not be pronounced, and afforded the
defendant and his attorney the opportunity to make statements in the defendant’s behalf and to present any information in
mitigation of punishment, and the court having informed the defendant and his attorney of the factual contents and conclusions
contained in the written report of the presentence investigation prepared by the Division of Probation and Paro[d‘ and provided
defendant's attorney with a copy of the report although not the sources of confidential information, the defendant 0 a:agreed with the
factual contents of said report □ was granted a hearing to controvert the factual contents of the report. Having given due
consideration to the written report by the Division of Probation and Parole, and to the nature and circumstances of the crime, and
to the history, character and condition of the defendant, the court is of the opinion:
that the defendant is eligible for probation, probation with an alternative sentencing plan, or conditional discharge
as hereinafter ordered on AOC-455.
No sufficient cause having been shown why judgment should not be pronounced, it is ADJUDGED BY THE COURT that
the defendant is guilty of the following charge(s):
Ct.1
Ct 2

ct. 3

Criminal attempt to first degree sexual abuse (amended) - (12 months)
Dismissed

Dismissed

and is sentenced to:
imprisonment for a maximum term of Twelve (12) months in the county jail, conditionally discharged as stated in
the attached Order of Conditional Discharge. (No fine imposed on KRS Chapter 31 indigent defendant).
IT IS FURTHER ORDERED THAT the defendant's bond is released.

as? “r#,ra
BY:

ol
r

Court hereby
' is a true
20UL

CLERK

D.C.

Attachment A
QNEAL-000275

*

CffitesaaasofioaazzTBR*

nm mmm '

/
Pursuant to KRS 17.510(2} defendant has been convicted of a sex crime and has been informed of duty to register with
the appropriate local Probation and Parole office for a period of 9-0
_
It is hereby ORDERED restitution, if any. is to be paid pursuant to separate Order.
DEFENDANT may not be released from probation or parole supervision until restitution has been paid in full and all other aspects
of probation have been successfully completed.
□

Counsel is hereby removed as counsel of record, except for filing one shock probation motion, unless otherwise arranged
by contract;
Pursuant to KRS 532.352 the Defendant is ordered to pay costs of incarceration to the Calloway County Detention Center
in the amount of $ LO.do__________ .

It is further ORDERED that the defendant be delivered to the custody of the Department of Corrections at such location
within this Commonwealth as Corrections shall designate.
DATED this the

day of

DENNIS R. FOUST, JUDGE
Calloway Circuit Court
COPY DISTRIBUTION:
Defendant
Defendant's Attorney
Prosecutor
Probation & Parole
Department of Corrections

Jail

Sheriff (2 Certified copies if defendant sentenced to death or confinement)
School (If defendant is youthful offender)
Principal,
SHERIFF'S RETURN

ONEAL-000276

20 <\

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
Eighth Amendment, United States Constitution
Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.
18 U.S.C. $ 2252A
(a) Any person who ... (5) either ...
(B) knowingly possesses, or knowingly accesses with intent to view,
any book, magazine, periodical, film, videotape, computer disk, or any
other material that contains an image of child pornography that has been
mailed, or shipped or transported using any means or facility of
interstate or foreign commerce or in or affecting interstate or foreign
commerce by any means, including by computer, or that was produced
using materials that have been mailed, or shipped or transported in or
affecting interstate or foreign commerce by any means, including by
computer;
18 U.S.C. $ 2252A(b)(2)
Whoever violates, or attempts or conspires to violate, subsection (a)(5)
shall be fined under this title or imprisoned not more than 10 years, or
both, but, if any image of child pornography involved in the offense
involved a prepubescent minor or a minor who had not attained 12 years
of age, such person shall be fined under this title and imprisoned for not
more than 20 years, or if such person has a prior conviction under this
chapter, chapter 71, chapter 109A, or chapter 117, or under section 920
of title 10 (article 120 of the Uniform Code of Military Justice), or
under the laws of any State relating to aggravated sexual abuse, sexual
abuse, or abusive sexual conduct involving a minor or ward, or the
production, possession, receipt, mailing, sale, distribution, shipment, or
transportation of child pornography, such person shall be fined under
this title and imprisoned for not less than 10 years nor more than 20
years.

ftpf. 21

Kv,Rev.Stat. IKRS) § 510.110 Sexual Abuse in the First Degree
(1) A person is guilty of sexual abuse in the first degree when:
(a) He or she subjects another person to sexual contact by forcible
compulsion; or
(b) He or she subjects another person to sexual contact who is incapable
of consent because he or she:
1. Is physically helpless;
2. Is less than twelve (12) years old;
3. Is mentally incapacitated; or
4. Is an individual with an intellectual disability; or
(c) Being twenty-one (21) years old or more, he or she:
1. Subjects another person who is less than sixteen (16) years
old to sexual contact;
2. Engages in masturbation in the presence of another person
who is less than sixteen (16) years old and knows or has
reason to know the other person is present; or
3. Engages in masturbation while using the Internet,
telephone, or other electronic communication device while
communicating with a minor who the person knows is less
than sixteen (16) years old, and the minor can see or hear the
person masturbate; or
(d) Being a person in a position of authority or position of special trust,
as defined in KRS 532.045, he or she, regardless of his or her age,
subjects a minor who is less than eighteen (18) years old, with whom
he or she comes into contact as a result of that position, to sexual
contact or engages in masturbation in the presence of the minor and
knows or has reason to know the minor is present or engages in
masturbation while using the Internet, telephone, or other electronic
communication device while communicating with a minor who the
person knows is less than sixteen (16) years old, and the minor can see
or hear the person masturbate.

22 <x.

M

i

*

(2) Sexual abuse in the first degree is a Class D felony, unless the victim
is less than twelve (12) years old, in which case the offense shall be a Class C
felony.
Ky.Rev.Stat. (KRS) § 510.010 - Definitions for Chapter
The following definitions apply in this chapter unless the context
otherwise requires:
(7) “Sexual contact” means any touching of the sexual or other intimate
parts of a person done for the puipose of gratifying the sexual desire of
either party;

Ky.Rev.Stat. (KRS) § 506.010 - Criminal Attempt
(1) A person is guilty of criminal attempt to commit a crime when, acting with
the kind of culpability otherwise required for commission of the crime, he:
(a) Intentionally engages in conduct which would constitute the crime
if the attendant circumstances were as he believes them to be; or
(b) Intentionally does or omits to do anything which, under the
circumstances as he believes them to be, is a substantial step in a
course of conduct planned to culminate in his commission of the crime.
(2) Conduct shall not be held to constitute a substantial step under subsection
(l)(b) unless it is an act or omission which leaves no reasonable doubt as to
the defendant's intention to commit the crime which he is charged with
attempting.
(3) A person is guilty of criminal attempt to commit a crime when he engages
in conduct intended to aid another person to commit that crime, although the
crime is not committed or attempted by the other person, provided that his
conduct would establish complicity under KRS 502.020 if the crime were
committed by the other person.
(4) A criminal attempt is a:
(a) Class C felony when the crime attempted is a violation of KRS
521.020 or 521.050;

ftpp. 23 a.

# % *

(b) Class B felony when the crime attempted is a Class A felony or
capital offense;
(c) Class C felony when the crime attempted is a Class B felony;
(d) Class A misdemeanor when crime attempted is Class C or D
felony;
(e) Class B misdemeanor when crime attempted is misdemeanor.

24 ce

